No. 20-157

In The Supreme Court of The United States
EDWARD A. CANIGLIA v. ROBERT F. STROM, ET AL.,
CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the document
contains 5,439 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on February 17, 2021.

For:
JOHN J. KORZEN
Counsel of Record
WAKE FOREST UNIVERSITY
SCHOOL OF LAW
APPELLATE ADVOCACY CLINIC
Post Office Box 7206
Winston-Salem, NC 27109
(336) 758-5832
korzenjj@wfu.edu
LISA SORONEN
STATE AND LOCAL
LEGAL CENTER
123 N. Capitol St. N.W.
Washington, DC 20001
(202) 434-4845
lsoronen@sso.org
Counsel for Amici Curiae

Karen R. Taylor
GibsonMoore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
karen@gibsonmoore.net

